                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL


                     Audits on EPA Recovery Act-
                     Funded Diesel Emission
                     Reduction Act Assistance
                     Agreements Reported
                     Programmatic and Management
                     Challenges

                     Report No. 14-R-0355              September 15, 2014




Scan this mobile
code to learn more
about the EPA OIG.
 This is one of the U.S. Environmental Protection Agency Office of Inspector General’s
 products associated with climate change. For details on our other reports on climate
 change, go to http://www.epa.gov/oig/climatechange.


Report Contributors:                                 Leah Nikaidoh
                                                     Darren Schorer




Abbreviations

DERA           Diesel Emissions Reduction Act
EPA            U.S. Environmental Protection Agency
FY             Fiscal Year
OAR            Office of Air and Radiation
OIG            Office of Inspector General


Cover photos:      The American Recovery and Reinvestment Act of 2009 logo (center);
                   (clockwise from top): a retrofitted school bus (EPA photo), old and new trailer
                   refrigeration units (EPA OIG photo), a locomotive (EPA OIG photo), and an
                   EPA-certified SmartWay tractor (EPA photo).


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                       U.S. Environmental Protection Agency                                              14-R-0355
                       Office of Inspector General                                               September 15, 2014



                       At a Glance
Why We Did This Review             Audits on EPA Recovery Act-Funded Diesel Emission
In 2005, Congress passed the
                                   Reduction Act Assistance Agreements Reported
Energy Policy Act, of which        Programmatic and Management Challenges
Title VII, Subtitle G,
established a program               What We Found
commonly referred to as the
Diesel Emissions Reduction         During the six previous audits on Recovery         EPA should consider the
Act (DERA) program. As part of     Act cooperative agreements awarded for             issues identified in our
our oversight of the               DERA projects, we determined that:                 prior reports as it takes
U.S. Environmental Protection                                                         actions directed by the
Agency’s (EPA’s) awarding of           Four of the six recipients did not meet all   Office of Management and
assistance agreements under             objectives of grant awards.                   Budget to assess risk
the American Recovery and              Five of the six recipients did not have       inherent in its programs.
Reinvestment Act of 2009, we            financial management systems that
issued six separate reports on          met federal requirements.
specific cooperative                   Four of the six recipients did not meet Recovery Act requirements.
agreements involving the
                                   As a result, we had questioned over 90 percent of the expenditures reviewed.
DERA program. The purpose
of this new report is to
                                   As part of the Office of Management and Budget’s streamlining of federal
summarize the findings in the
                                   assistance agreement requirements, emphasis has now been placed on
previous reports and identify
                                   agencies to assess recipient risk, and to focus on performance outcomes. The
commonalities or overarching
                                   EPA should consider the issues identified as it takes such streamlining actions.
issues.
                                   The six previous audits included recommendations for corrective actions.
EPA awarded $294 million in
                                   No new recommendations are included because the limited sample size of
Recovery Act funds under the
                                   previous Office of Inspector General reports may not be representative of the
DERA program for
                                   entire population of EPA DERA awards. Examples of actions the EPA took to
160 assistance agreements.
                                   address issues identified in the prior audit reports include the following:
The reported results are from
our six previous reports,
representing approximately             In response to a recipient not requiring a subrecipient to scrap or
$26 million in federal                  remanufacture old engines taken from repowered locomotives in
expenditures.                           accordance with the cooperative agreement, action was taken to do so.
                                       The EPA was able to provide confirmation that every vehicle reported as
This report addresses the               retrofitted by a recipient under its cooperative agreement was completed.
following EPA goal or                  A recipient was not operating repowered locomotives in the area defined
cross-agency strategy:                  in the cooperative agreement, and the cooperative agreement was
                                        amended to have the grantee deliver environmental and health benefits to
  Addressing climate change            the required area.
   and improving air quality.
                                   The EPA’s Office of Air and Radiation also made changes to DERA oversight to
Send all inquiries to our public   reduce risk in the future, including revised methodologies for emissions
affairs office at (202) 566-2391   reporting, yearly project officer and grantee training, creation of technical
or visit www.epa.gov/oig.          guidance related to DERA-specific assistance agreement management, and
                                   continued baseline and advanced monitoring on the DERA program.
The full report is at:
www.epa.gov/oig/reports/2014/
20140915-14-R-0355.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460

                                                                                     THE INSPECTOR GENERAL



                                          September 15, 2014

MEMORANDUM

SUBJECT:       Audits on EPA Recovery Act-Funded Diesel Emission Reduction Act
               Assistance Agreements Reported Programmatic and Management Challenges
               Report No. 14-R-0355

FROM:          Arthur A. Elkins Jr.

TO:            Janet McCabe, Acting Assistant Administrator
               Office of Air and Radiation

               Nanci Gelb, Acting Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject review conducted by the Office of the Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). As part of our oversight of the EPA’s awarding of
assistance agreements under the American Recovery and Reinvestment Act of 2009, we issued six
separate reports on specific assistance agreements involving the Diesel Emission Reduction Act
program. The purpose of this new report is to summarize the findings from the previous reports and
identify commonalities or overarching issues. The six previous audits included recommendations for
corrective actions. No new recommendations are included in this report because the limited sample size
of the previous OIG reports may not be representative of the entire population of EPA Diesel Emission
Reduction Act program awards. The report represents the opinion of the OIG and does not necessarily
represent the final EPA position.

The Office of Air and Radiation’s Office of Transportation and Air Quality and the Office of
Administration and Resources Management’s Office of Grants and Debarment can consider the issues
identified in assessing the risks associated with recipients prior to award.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
However, if you submit a response, it will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want released to the public. If your
response contains such data, you should identify the data for redaction or removal, along with
corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
Audits on EPA Recovery Act-Funded Diesel Emission                                                                             14-R-0355
Reduction Act Assistance Agreements Reported
Programmatic and Management Challenges




                                     Table of Contents
   Introduction ...............................................................................................................     1

           Purpose ..............................................................................................................   1
           Background ........................................................................................................      1
           Responsible Offices ............................................................................................         2
           Scope and Methodology .....................................................................................              2

   What We Found .........................................................................................................          5

           Recipients Did Not Meet Award Objectives.........................................................                        6
           Recipients’ Financial Management Systems
                 Did Not Meet Federal Requirements ..........................................................                        8
           Recipients Did Not Meet Recovery Act Requirements ........................................                                9
           Additional Prior Report Noted Similar Issues ......................................................                      10
           Update on Actions Taken by EPA .......................................................................                   10



 Appendix
   A       Distribution .......................................................................................................     12
                                              Introduction
Purpose
                  As part of our oversight of the U.S. Environmental Protection Agency’s (EPA’s)
                  awarding of assistance agreements1 under the American Recovery and
                  Reinvestment Act of 2009, the EPA Office of Inspector General (OIG) issued six
                  separate reports on specific assistance agreements involving EPA’s Diesel
                  Emission Reduction program. The purposes of this new report are to:

                          Summarize the findings reported under the assistance agreement audit
                           reports.
                          Identify any commonalities or overarching issues that impacted the
                           recipients’ abilities to meet their grant objectives and comply with federal
                           regulations.

Background
                  Diesel emissions account for 6.3 million tons of nitrogen oxide and 305,000 tons
                  of particulate matter in the national mobile emissions inventory (2004). The
                  emissions are from a variety of on-road and non-road vehicles, such as those used
                  for freight, ports, transit, construction, agriculture and energy production.

                  According to the EPA, reducing emissions from diesel engines is one of the most
                  important air-quality challenges facing the United States. These emissions
                  contribute to serious public health problems, including asthma, lung cancer, and
                  various other cardiac and respiratory diseases. These problems result in thousands
                  of premature deaths, millions of lost workdays, and numerous other negative
                  health and economic outcomes every year.

                  In 2005, Congress passed the Energy Policy Act, of which Title VII, Subtitle G
                  established a program commonly referred to as the Diesel Emissions Reduction
                  Act (DERA) program. Congress appropriated a total of $219.1 million for the
                  EPA under DERA for fiscal years (FYs) 2008 through 2011. The money enabled
                  the EPA’s Office of Air and Radiation (OAR) to fund programs managed by
                  OAR’s Office of Transportation and Air Quality to achieve significant reductions
                  in diesel emissions (e.g., tons of pollution produced and diesel-emission
                  exposures, particularly from fleets operating in areas designated by the agency as
                  poor air quality areas). Of the authorized DERA amount, 70 percent is authorized

1
 An assistance agreement is the legal instrument EPA uses to transfer money, property, services, or anything of
value to a recipient to accomplish a public purpose. It is either a grant or a cooperative agreement and will specify:
budget and project periods; the Federal share of eligible project costs; a description of the work to be accomplished,
and any terms and conditions/special conditions.


14-R-0355                                                                                                            1
            for competitive national assistance agreements and low-cost revolving loans, and
            the remaining 30 percent is for state assistance agreements and loan programs.
            The OAR continues to provide substantial DERA funding, with non-Recovery
            Act awards of over $141 million to recipients to reduce diesel air emissions
            through FY 2017.

            Congress appropriated an additional $300 million to the EPA in FY 2009 for
            DERA assistance agreements under the Recovery Act. In addition to the DERA
            goal of reductions in diesel emissions, the assistance agreements awarded with
            Recovery Act funds were also intended to promote economic recovery and create
            or retain jobs. EPA was to consider these economic factors in awarding
            competitive grants and fund projects that could be undertaken quickly. The EPA
            reported that it awarded approximately $294 million for 160 assistance
            agreements.

Responsible Offices
            The OAR’s Office of Transportation and Air Quality and the Office of
            Administration and Resources Management’s Office of Grants and Debarment are
            the program offices responsible for the issues discussed in this report.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives. We identified six previous reports on
            Recovery Act DERA projects issued by the OIG for review, as listed in table 1.




14-R-0355                                                                                      2
Table 1: Summary of previously issued OIG audit reports
                               Report title                            Report no.     Date issued
 Examination of Costs Claimed Under EPA Cooperative Agreement          12-R-0749    September 4, 2012
 2A-83440701 Awarded Under the Recovery Act to Cascade Sierra
 Solutions, Eugene, Oregon
 Air Quality Objectives for the Baton Rouge Ozone Nonattainment Area   13-R-0297      June 20, 2013
 Not Met Under EPA Agreement 2A-96694301 Awarded to the Railroad
 Research Foundation
 Projected Emission Reductions Overstated and Buy American             13-R-0321      July 19, 2013
 Requirements Not Met Under EPA Award to the Tennessee Department
 of Transportation
 Examination of Costs Claimed Under EPA Cooperative Agreements         13-R-0353     August 22, 2013
 2A-96104501 and 2A-96107201 Awarded Under the Recovery Act to
 Chelsea Collaborative Inc., Chelsea, Massachusetts
 Examination of Costs Claimed Under American Recovery and              13-R-0367     August 30, 2013
 Reinvestment Act Cooperative Agreement 2A-97706701 Awarded to
 Grace Hill Settlement House, St. Louis, Missouri
 Unless California Air Resources Board Fully Complies With Laws and    14-R-0130      March 6, 2014
 Regulations, Emission Reductions and Human Health Benefits Are
 Unknown

Source: OIG-issued reports


                 We analyzed the findings and recommendations to determine whether there were
                 any issues common to more than one audit. We did not obtain any new
                 information and did not conduct preliminary research. This report is intended to
                 be informative in nature and provide lessons learned for future DERA awards.
                 No recommendations are included because the limited sample size of the previous
                 OIG reports issued may not be representative of the entire population of EPA
                 DERA awards. We believe that the evidence obtained provides a reasonable basis
                 for our findings and conclusions based on our audit objectives.

                 The seven assistance agreements included in these six reports represented
                 $26,737,810 of the approximately $294 million of Recovery Act DERA money
                 awarded by EPA. The six recipients included four non-profit organizations and
                 two state agencies. Details on the assistance agreements are in table 2.




14-R-0355                                                                                               3
Table 2: Details on grants reviewed
                                                                                    Federal
                           Recipient                                                 award        Project
       Recipient             type        Grant no.       Project objective          amount        period
 Cascade Sierra            Non-profit   2A-83440701   Create a national             $9,000,000   08/01/09 to
 Solutions, Eugene,                                   revolving loan program                      03/31/13
 Oregon                                               for heavy-duty trucks.
 Railroad Research         Non-profit   2A-96694301   Repower locomotives            2,927,496   09/09/09 to
 Foundation,                                          for Baton Rouge,                            12/31/10
 Washington, D.C.                                     Louisiana.
 Tennessee Department          State    2A-95425709   Install a network of truck     2,000,000   06/01/09 to
 of Transportation,                                   stop electrification                        11/30/11
 Nashville, Tennessee                                 facilities at highway
                                                      truck stops.
 Chelsea Collaborative     Non-profit   2A-96104501   Provide 14 retrofits and       1,921,426   05/01/09 to
 Inc., Chelsea,                             and       four engines upgrades.                      09/30/11
 Massachusetts                          2A-96107201   Repower privately-
                                                      owned stationary cold
                                                      storage units.
 Grace Hill Settlement     Non-profit   2A-97706701   Provide emission               2,000,000   06/01/09 to
 House, St. Louis,                                    reduction technology for                    06/30/11
 Missouri                                             a variety of vehicles.
 California Air                State    2A-00T13801   Repower switch-yard            8,888,888   06/15/09 to
 Resources Board,                                     locomotives within the                      12/31/10
 Sacramento, California                               South Coast Air Basin.
   Total                                                                           $26,737,810

Source: EPA grants database.




14-R-0355                                                                                                      4
                                  What We Found
            Our review of the six prior audits of specific cooperative agreements awarded
            under the Recovery Act involving DERA projects identified three common,
            overarching issues:

                   Four of the six recipients did not meet all the objectives of the award.
                   Five of the six recipients did not have a financial management systems
                    that met federal requirements that applied to the grant award.
                   Four of the six recipients did not meet Recovery Act requirements.

            As a result, we questioned a total of $23.8 million of the $26.3 million claimed
            under the assistance agreements. We summarize the costs questioned by finding
            and recipient in tables 3 and 4, respectively.

            Table 3: Costs questioned by finding
                                                                                     Costs
                                            Finding                                questioned
             Objectives of award not met                                            $11,655,343
             Federal requirements for financial management systems not met           10,538,263
             Recovery Act requirements not met                                        1,623,049
                Total                                                               $23,816,655
            Source: OIG-issued reports.

            Table 4: Funds audited and costs questioned by recipient
                                                                Federal funds        Costs
                                Recipient                          audited         questioned
             Cascade Sierra Solutions                                 $9,000,000     $9,000,000
             Railroad Research Foundation                              2,904,578      2,904,578
             Tennessee Department of Transportation                    1,623,049      1,623,049
             Chelsea Collaborative Inc.                                1,921,426                0
             Grace Hill Settlement House                               1,985,679      1,423,028
             California Air Resources Board                            8,866,000      8,866,000
                Total                                               $26,300,732     $23,816,655
            Source: OIG-issued reports and assistance agreement award documents.

            Cooperative agreements require substantial involvement in the form of technical
            assistance, development of outputs and oversight. Substantial involvement takes
            the form of monitoring the project by the EPA, participation and collaboration
            between the EPA and the recipient in program content, review of project progress,
            and quantification and reporting of results. Greater involvement, especially in the



14-R-0355                                                                                           5
               early stages of the project, could prevent confusion over requirements and the
               later need for corrective actions at the end of the project.

  Recipients Did Not Meet Award Objectives

               Four of six recipients did not meet the award objectives. Details on our findings
               are in table 5.

 Table 5: Details on recipients not meeting award objectives
      Recipient                       Objective                                 Findings
  Cascade Sierra        The cooperative agreement allows         Recipient did not install verified
  Solutions             for funding of pre-2007 model year       emission control technologies on
                        highway vehicles so long as              pre-2007 model year trucks;
                        verified emission control                therefore, trucks did not meet
                        technologies have been installed.        emission requirements.
  Railroad Research     The cooperative agreement states         Repowered locomotives were not
  Foundation            that the foundation requested funds      operating in the Baton Rouge
                        to repower locomotives in the city       nonattainment area as provided for in
                        of Baton Rouge, Louisiana, which         proposal. As a result, the inhabitants
                        is currently designated as a             of Baton Rouge were not receiving
                        nonattainment area for ozone.            the benefits of the lower diesel
                                                                 emissions expected by the EPA.
  Tennessee             The cooperative agreement states         Recipient overestimated emission
  Department of         that the final project report will       reduction projections because it used
  Transportation        include a summary of the project or      estimated hours rather than actual
                        activity, and actual results (outputs    usage.
                        and outcomes, and costs). The
                        agreement also says the final
                        report will include the actual
                        emissions benefit calculations.
  California Air         The cooperative agreement               Recipient did not scrap or
  Resources Board         requires the recipient to agree to       remanufacture replaced locomotive
                          scrap or remanufacture replaced          engines.
                          equipment.
                         The cooperative agreement states        Emission reductions calculations
                          that the project will achieve            were based on estimates of fuel
                          significant reductions in diesel         usage because actual fuel usage
                          emissions.                               data was not available. As a result,
                                                                   the board does not have reasonable
                                                                   assurance of achieving projected
                                                                   emission reductions and human-
                                                                   health benefits.
 Source: OIG-issued reports and assistance agreement award documents.

               Our audits reported that, in some cases, recipients misunderstood requirements of
               the cooperative agreement awards; or, in the haste of completing projects within
               the Recovery Act deadlines, guidance was not adequately communicated or
               documented to the recipient. We noted that one recipient did not seek guidance
               from the EPA on a timely basis, and did not disclose the issue in the quarterly


14-R-0355                                                                                                 6
            reports. Further, the audits disclosed issues with emission reduction calculations
            similar to those reported in a previous OIG report to the OAR (see later section,
            Additional Prior Report Noted Similar Issues). Ultimately, the final reports
            submitted by recipients did not demonstrate that Recovery Act DERA projects
            achieved the desired emissions reductions.

            Recipients Did Not Seek or Document EPA Guidance

            Although the Railroad Research Foundation’s award required repowering five
            locomotives in Baton Rouge—an ozone nonattainment area—we found that the
            locomotives were not operating in Baton Rouge. The foundation’s subrecipient
            did not believe that it was required to operate the repowered locomotives in the
            Baton Rouge area after the project period expired. This conclusion was based on a
            response to a hypothetical question that the railroad obtained from the National
            Clean Diesel Campaign Helpline. If the subrecipient had questions regarding its
            obligations under the agreement with the foundation, it should have addressed
            those concerns directly with the foundation.

            Both Cascade Sierra Solutions and California Air Resources Board made decisions
            on grant activities that did not meet the award objective because they believed they
            had EPA concurrence, but they did not have documentation. Specifically:

                  The Cascade Sierra Solutions award allowed the purchase of pre-2007
                   model-year trucks as long as verified emission control technologies were
                   installed. Cascade purchased the trucks but did not retrofit them as required
                   by the award. Cascade said the EPA project officer approved the purchase
                   of the pre-2007 model-year trucks without retrofits on the condition that
                   they be retrofitted at a later date. However, the communication cited by
                   Cascade does not provide the project officer’s approval for the purchase; it
                   only acknowledges the purchase of the trucks and that Cascade planned to
                   retrofit the trucks in the fall of 2010. In addition, the quarterly reports
                   submitted by Cascade do not mention the pre-2007 model-year trucks until
                   the fourth quarter of 2010. As of the report date of September 4, 2012,
                   Cascade had yet to retrofit the pre-2007 model-year trucks.

                  The California Air Resources Board said it did not require the BNSF
                   Railway Company to scrap or remanufacture the old engines in accordance
                   with the award and Energy Policy Act requirements. The locomotives with
                   the old engines would be banned from operation within California, which is
                   consistent with the board’s other funding programs using incentives. The
                   board said that the ban option was part of discussions with the EPA, and the
                   board believed it had approval from the EPA. The EPA acknowledged that
                   the period during project approvals was a chaotic time, but was not aware of
                   any approval. In response to the audit, the board and BNSF signed a written
                   agreement to scrap or remanufacture the old engines, and this agreement is
                   supported by EPA headquarters and Region 9.



14-R-0355                                                                                        7
            Recipients’ Final Report Did Not Demonstrate Achievement of
            Emission Reduction

            The Tennessee Department of Transportation overstated its project results by using
            significantly overestimated usage assumptions in its projections rather than using
            actual usage data. As a result, Tennessee did not have reasonable assurance that the
            truck stop electrification project will achieve its projected emissions reductions and,
            ultimately, expected environmental and human health benefits. Further, the DERA
            program results may be overstated. In response to the report, EPA Region 4 said it is
            working with Tennessee to update emissions reduction information, and Tennessee
            said it was willing to work with the EPA to modify project results based on actual
            usage.

            The California Air Resources Board calculated potential emissions reductions for
            the repowered locomotives based on estimates of fuel usage because actual fuel-
            usage data for individual locomotives was not available. The board provided a
            range of emissions reductions based on estimated fuel usage, but the estimates
            varied significantly and the project may not achieve the emissions reduction
            targets. Unless the board can provide actual fuel usage, the EPA does not have
            reasonable assurance that the project will achieve projected emission reductions or
            expected environmental results and human health benefits.

  Recipients’ Financial Management Systems Did Not Meet
  Federal Requirements

            We questioned $10,538,263 because the financial management systems for five of
            six recipients did not meet federal requirements that apply under the assistance
            agreement award. Of the five recipients, four are non-profit organizations and one
            is a state agency. Specific instances of noncompliance included:

                   A financial management system that was unable to provide timely
                    financial information and reporting.
                   A formal revolving fund not being established to support the revolving
                    loan fund program.
                   Project costs that were not fully supported.
                   Progress reports that did not accurately identify expenditures by funding
                    source, the number of projects, and the total cost of projects.
                   Equipment procurements not meeting competition or cost and price
                    analysis requirements.
                   A contractor billing costs in excess of the recipient’s share of total costs.
                   Lack of segregation of unallowable costs.
                   Cash draws exceeding immediate cash needs.


14-R-0355                                                                                             8
            The amount of questioned costs by recipient are presented in table 6.

            Table 6: Financial management system questioned costs
                          Recipient                    Recipient Type     Questioned Costs
             Cascade Sierra Solutions                     Non-profit                 $9,000,000
             Railroad Research Foundation                 Non-profit                    21,126
             Chelsea Collaborative Inc.                   Non-profit                          0
             Grace Hill Settlement House                  Non-profit                  1,423,028
             California Air Resources Board                  State                      94,109
                Total                                                               $10,538,263

            Source: OIG-issued reports and EPA grants database.

            Because four of the six recipients audited were non-profit organizations, we
            reviewed EPA policies and procedures to determine whether the EPA had any
            specific guidance regarding the award of assistance agreements to non-profit
            organizations. EPA Order 5700.8, EPA Policy on Assessing Capabilities of Non-
            Profit Applicants for Managing Assistance Awards, establishes internal controls
            for determining whether the administrative and programmatic capability of non-
            profit organizations apply for assistance agreements. It also establishes uniform
            post-award procedures for addressing a material failure to comply by non-profit
            recipients. As part of our audit work, we did not assess the EPA’s pre-award
            process for compliance with this order. However, given the significant financial
            management issues identified in our reports, EPA may need to reassess the
            effectiveness of this policy for future DERA awards.

  Recipients Did Not Meet Recovery Act Requirements

            To receive Recovery Act funding, recipients had to comply with various
            requirements. As part of our audits, we reported that recipients did not fully
            comply with Recovery Act requirements related to job reporting and Buy
            American. The fact that Recovery Act requirements such as Buy American and
            job reporting were challenging for both the EPA and the recipients to interpret
            and implement contributed to the issues noted.

            Four of the six recipients did not calculate the number of jobs created or retained
            in accordance with Office of Management and Budget guidance for Section 1512
            of the Recovery Act. Three recipients calculated jobs created or retained by
            including labor hours that were not funded through the Recovery Act. The
            recipients either agreed with the finding or expressed willingness to work with
            EPA on resolving the finding. One recipient was unable to provide supporting
            documentation for the number of jobs reported as created or retained, and the
            recipient disagreed with the finding. EPA has not provided a response and the
            finding is still unresolved.


14-R-0355                                                                                         9
            One recipient—the Tennessee Department of Transportation—did not comply
            with the Recovery Act’s Buy American requirements for all of its contract
            awardees. This occurred because, subsequent to the contract awards, the EPA
            incorrectly determined that the requirements did not apply to the project.
            Consequently, there was no assurance that all iron, steel or manufactured goods
            incorporated into the project were manufactured or substantially transformed in
            the United States, as required by Section 1605 of the Recovery Act. As a result,
            we questioned $1,623,049 as unsupported. Tennessee disagreed with the finding
            and recommendation. EPA Region 4 said that Tennessee has information that
            demonstrated Buy American compliance, but the finding is still unresolved.

  Additional Prior Report Noted Similar Issues

            In addition to the six audits noted, the OIG had conducted an evaluation to
            determine whether selected Recovery Act awards were effective in obtaining
            diesel retrofits and intended diesel emission reductions. That evaluation, EPA
            Should Improve Guidance and Oversight to Ensure Effective Recovery Act-
            Funded Diesel Emissions Reduction Act Activities (Report No. 11-R-0141), was
            issued March 1, 2011.

            The OIG had reviewed National Clean Diesel Funding Assistance Program and
            State Clean Diesel Program assistance agreements. The report found that
            documentation of grant activities was not always sufficient to demonstrate that
            funded work met the specific requirements needed to achieve the desired
            emissions reductions. As a result, the EPA could overestimate emissions
            reductions for grant activities. Additionally, EPA funds were used to replace
            vehicles that would have been replaced anyway due to normal attrition.

            The report concluded that EPA should issue additional guidance and improve
            oversight to ensure that completed activities achieve planned emissions reductions
            and that the activities are reported accurately. Additional EPA guidance was
            needed to clarify when replacements were considered normal attrition and not
            eligible for DERA funding. OAR had concurred with the findings and conclusions
            and agreed to implement all of the report’s recommendations.

  Update On Actions Taken by EPA

            OAR provided additional information on the DERA program’s activities since the
            grants were awarded in 2009. OAR said it has strengthened the DERA program
            over the past 5 years and addressed many of the issues identified in the prior
            audits.

            OAR acknowledged the issues with Recovery Act requirements but noted these
            were unique requirements and had not been required for non-Recovery Act


14-R-0355                                                                                     10
            DERA projects. OAR believed it worked hard to balance the need to meet the
            mission of Recovery Act funding to complete “shovel ready projects” as fast as
            possible while interpreting and implementing Recovery Act requirements.

            OAR said significant effort has been made to resolve the issues in the prior audit
            reports. OAR and the regions have worked with grantees to complete projects as
            intended. Specific actions included:

                  Closing out the agreement between the California Air Resources Board
                   and BNSF to scrap locomotive engines.
                  Confirming with the Grace Hill Settlement House that every vehicle
                   retrofitted under the grant was completed.
                  Amending the agreement between the Railroad Research Foundation and
                   the Kansas City Southern Railway Company regarding the operation of
                   five repowered locomotives.
                  Recovering $1.8 million of funds from Cascade Sierra Solutions; the funds
                   were returned to the DERA program to fund emissions projects in priority
                   areas with poor air quality.

            In addition, OAR has made changes to DERA program oversight and
            implementation to reduce the risk of issues in the future, including:

                  Updating DERA’s request for proposal.
                  Revising reporting templates and methodologies for emissions reporting.
                  Revising assistance agreement terms and conditions to clarify “early
                   replacement.”
                  Initiating yearly project officer and grantee training.
                  Creating a technical guidance document emphasizing important points
                   related to DERA-specific grants management and emission reduction
                   technologies.
                  Continuing to conduct baseline and advanced monitoring on the DERA
                   program.




14-R-0355                                                                                    11
                                                                              Appendix A

                                   Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Air and Radiation
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Grants and Interagency Agreements Management Division, Office of Administration
        and Resources Management
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Director, Office of Policy and Resource Management, Office of Administration and
        Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
        Resources Management
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
        Resources Management




14-R-0355                                                                                   12
